No.
IN THE SUPREME COURT OF THE UNITED STATES

ADRIAN IONESCU,
Petitioner
vs.
MARIA ALEXIANU,
Respondent

PROOF OF SERVICE
I Adrian Ionescu do swear or declare that on this date, July 7, 2020, as
required by Supreme Court Rule 29 I have served the enclosed PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Maria Alexianu. 507 Westfield Ave, Westfield. NJ 07090
I declare under penalty of perjury that the foregoing is true and correct.
Executed July 7, 2020
(Signature)

